<html>
<title> - THE DIPLOMAT'S SHIELD: DIPLOMATIC SECURITY IN TODAY'S WORLD</title>
<body><pre>[Senate Hearing 111-461]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-461
 
      THE DIPLOMAT'S SHIELD: DIPLOMATIC SECURITY IN TODAY'S WORLD 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-150 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           ROBERT F. BENNETT, Utah
PAUL G. KIRK, JR., Massachusetts

                     Lisa M. Powell, Staff Director
             Joel C. Spangenberg, Professional Staff Member
             Jessica K. Nagasako, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                   Benjamin B. Rhodeside, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     2

                               WITNESSES
                      Wednesday, December 9, 2009

Ambassador Eric J. Boswell, Assistant Secretary of State for 
  Diplomatic Security, U.S. Department of State..................     4
Jess T. Ford, Director, International Affairs and Trade, U.S. 
  Government Accountbility Office................................     6
Ambassador Ronald E. Neumann (Ret.), President, American Academy 
  of Diplomacy...................................................    21
Susan R. Johnson, President, American Foreign Service Association    23

                     Alphabetical List of Witnesses

Boswell, Ambassador Eric J.:
    Testimony....................................................     4
    Prepared statement...........................................    37
Ford, Jess T.:
    Testimony....................................................     6
    Prepared statement...........................................    44
Johnson, Susan R.:
    Testimony....................................................    23
    Prepared statement...........................................    70
Neumann, Ambassador Ronald E. (Ret.):
    Testimony....................................................    21
    Prepared statement...........................................    55

                                APPENDIX

Background.......................................................    77
Responses to questions submitted for the Record:
    Ambassador Boswell...........................................    84
    Ambassador Neumann...........................................   100
    Ms. Johnson..................................................   102


      THE DIPLOMAT'S SHIELD: DIPLOMATIC SECURITY IN TODAY'S WORLD

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to welcome our witnesses and thank you for being 
here today. Today's hearing, ``The Diplomat's Shield: 
Diplomatic Security in Today's World,'' will examine the 
results of a Government Accountability Office (GAO) review of 
the Department of State's Diplomatic Security Bureau, which 
provides security for the State Department worldwide so our 
diplomats can advance U.S. interests.
    Since the terrorist bombings of the U.S. embassies in Kenya 
and Tanzania in August 1998, and the terrorist attacks of 
September 11, 2001, Diplomatic Security's (DS) responsibilities 
have grown and evolved. The wars in Iraq and Afghanistan 
further increase the challenges of keeping our diplomats safe.
    Last week, President Obama announced his new Afghanistan 
strategy. Thirty-thousand U.S. troops will deploy in support of 
this effort. Secretary of State Hillary Clinton stated that the 
number of civilians in Afghanistan will triple by early next 
year. DS must be fully prepared to support an even greater role 
in protecting our civilians.
    Over the last decade, DS's budget has increased almost 10-
fold, to about $2 billion, and its direct-hire staff has 
doubled. Unfortunately, these extra resources have not 
guaranteed DS's readiness. In particular, I have concerns in 
three areas that I hope will be addressed today.
    First, the State Department must address the ongoing 
staffing challenges. GAO identified key workforce gaps that 
hinder DS in carrying out its duties. Less than half of 
Regional Security Officers serving in language-designated 
positions meet their proficiency requirements. More than one-
third of diplomatic security positions are filled by officers 
below the appropriate grade. And, there are personnel gaps at 
domestic offices and at key posts overseas. I believe that DS 
should invest more in its workforce by having enough people 
with the experience and language skills necessary to fully 
support its critical missions.
    Understaffing leads to an over-reliance on contractors. GAO 
found that there are 36,000 contractors that work in DS, which 
is about 90 percent of Diplomatic Security's total workforce. 
According to GAO, some DS employees are not prepared to manage 
this large contractor workforce. Recent security lapses at the 
U.S. Embassy in Kabul have illustrated the need for better 
contractor oversight.
    Second, the State Department must better manage the tension 
between fulfilling its diplomatic operations and providing 
strong security. Today, State Department employees serve in 
Iraq, Afghanistan, and other posts where they would have 
previously been required to evacuate. These diplomatic 
operations are critical to U.S. interests, but providing 
security for such dangerous missions places a great burden on 
DS.
    Because of these dangers, some of our overseas posts 
resemble fortresses and, for security reasons, may not be in 
locations considered most appropriate and accessible for 
diplomatic operations. GAO reported that some diplomats are 
concerned that security measures make it more difficult for 
visitors to attend U.S. embassy events, making person-to-person 
engagement less likely. We must be mindful that the way our 
diplomatic presence is seen and felt in other countries may 
reinforce or undermine our broader diplomatic goals. It is 
certainly critical that the United States protect its personnel 
from threats, both on and off-post. Security, however, must be 
carried out in concert with our diplomatic mission.
    Finally, I want to emphasize the need for improved 
strategic planning efforts within DS. I support GAO's 
recommendation for the State Department to conduct a strategic 
review of Diplomatic Security. The Department has already 
stated that DS will benefit from the Quadrennial Diplomacy and 
Development Review. I am looking forward to hearing more about 
this from our State Department witness and how strategic 
planning for DS can become a part of its culture.
    I look forward to hearing from our witnesses today.
    But first, Senator Voinovich, your opening statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka, and I 
appreciate your holding this hearing today. I have been 
concerned about the management of the State Department, not 
only as a Member of this Oversight of Government Management, 
the Federal Workforce, and the District of Columbia 
Subcommittee, but also as a former member of the Foreign 
Relations Committee and now on the Appropriations Committee on 
the Subcommittee on Foreign Operations.
    I think that, too often, the management of some of our 
agencies hasn't been given the consideration that they should 
have been given. I know that Secretary Clinton has indicated 
that she wants to move forward and improve the management, and 
there is going to be a large number of people that are going to 
be hired by the State Department. We are anxious to make sure 
that they get the right people on board to get the job done, 
and I think that is one of the reasons why we are here today 
because we are concerned about the issue of diplomatic 
security.
    I move around the world and visit some of our embassies and 
am very impressed with some of what I have seen and in other 
instances, after reading this report, a little bit concerned. 
It appears that the Bureau lacks the strategic planning and 
with little capacity to prepare for future security needs. I 
have talked this over with my staff and it seems that we just 
have too many people that are under contract, although from 
what we can tell, those that are under contract do a pretty 
good job.
    I know when I was in Iraq, I had Blackwater--and I asked 
them who was the security. I was in a helicopter. I thought 
maybe it was our guys. No, it was a private security operation. 
I got out of the helicopter and got into a SUV and I wanted to 
know, who is the security, and it is another private operation. 
And I wanted to find out who was training the Iraqi 
government's folks in the special unit and they were also hired 
people. Of course, that was the Department of Defense.
    So we would just like to look into how this is being looked 
at by the State Department. I think the thing that bothers me 
the most, and I think, Senator Akaka, you did a good job of 
laying it out, is that it appears that the people that have 
been brought on don't have the training that they need to get 
the job done.
    I know I spent a couple of hours over at the State 
Department with Richard Holbrooke and visited with the people, 
the team he is putting together to go to Afghanistan, and I was 
impressed that he is taking his time and trying to make sure he 
gets the right people and they are not in a big rush to just 
bring people on, but try and find the right ones.
    So I really would like to know just what percentage of the 
people that are going to be doing this ought to be on the 
government payroll and not private contractors. Are there too 
many that are on the private payroll?
    Second of all, can we do a better job of preparing those 
individuals that we are asking to do this job? I understand 
that it takes about 3 years to train somebody up for one of 
these jobs.
    And the other thing I am interested in is who decides 
whether or not the private contractor is doing the job that you 
are paying for? I have found that, too often, they have private 
sector people on, and the question is, does the agency know 
whether or not they are getting a return on the investment that 
they are putting into that private sector.
    So I am anxious to hear your testimony and the other two 
witnesses to follow.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to welcome our first panel of witnesses to the 
Subcommittee today, Ambassador Eric J. Boswell, the Assistant 
Secretary of State for Diplomatic Security, and Jess T. Ford, 
the Director of International Affairs and Trade at the U.S. 
Government Accountability Office.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses and I would ask you to please stand and raise 
your right hand.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ambassador Boswell. I do.
    Mr. Ford. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record. I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Ambassador Boswell, will you please proceed with your 
statement.

TESTIMONY OF AMBASSADOR ERIC J. BOSWELL,\1\ ASSISTANT SECRETARY 
   OF STATE FOR DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE

    Ambassador Boswell. Thank you, Mr. Chairman, and good 
afternoon to you, sir, and to the Members of the Committee, 
Senator Voinovich, as well. I am very honored to appear before 
you today. I would like to thank you and the Committee Members 
for your continued support and interest in the Bureau of 
Diplomatic Security's programs. With Congressional support, 
Diplomatic Security has been able to safeguard American 
diplomats and facilities for the conduct of U.S. foreign policy 
and maintain our robust investigative programs which serve to 
protect the borders of the United States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Boswell appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    With your permission, I will make this brief statement. 
While Diplomatic Security continues to provide the most secure 
environment possible for the conduct of America's foreign 
policy, as you mentioned, Mr. Chairman, in your opening 
remarks, the scope and scale of DS's responsibilities and 
authorities have grown immensely in response to emerging 
threats and security incidents. Increased resources were 
necessary for the Bureau to meet the requirements of securing 
our diplomatic facilities in the extremely high-threat 
environments of Iraq, Afghanistan, Pakistan, and other 
locations. The Department currently operates diplomatic 
missions in locations where, in the past, we might have closed 
the post and evacuated all personnel when faced with similar 
threats.
    As you may know, Mr. Chairman, I also served as Assistant 
Secretary for Diplomatic Security from 1995 to 1998. This is 
not the same organization as when I left. It is far, far more 
capable. Not only has DS grown in personnel and resources, it 
has developed the organizational structure necessary to meet 
all of the current challenges as well as those of the future.
    The recently released Government Accountability Office 
review of my Bureau correctly assesses that DS must do more to 
anticipate potential and emerging global security trouble spots 
in order to create risk management and mitigation strategies 
that best focus our limited resources and prioritize security 
needs. Such plans must also incorporate the strategic 
management of the resources available for our Bureau to fulfill 
its mission, both currently and in the future.
    Two years ago, Diplomatic Security created the Threat 
Investigations and Analysis Directorate to enhance our 
intelligence analysis capability. This directorate concentrates 
our threat analysis and intelligence gathering efforts under 
one streamlined command structure and fosters closing working 
relationships among all our analysts and those responsible for 
investigating, deterring, and mitigating threats.
    Our next challenge is to sharpen our focus, as you 
mentioned, sir, not only on predicting future security threats, 
but on planning in advance for the security solutions and 
resources needed for tomorrow's crises and foreign policy 
initiatives. Over the coming months, we will begin working 
toward the development of a strategic planning unit charged 
with ensuring that DS is even better positioned to support 
future foreign policy initiatives and manage global security 
threats and incidents.
    At the same time, we must balance our resources and 
security requirements to achieve an effective mix of highly-
skilled personnel while controlling costs associated with 
requirements that have grown tremendously over the last 20 
years. We are embarked on a new Bureau-wide planning process 
that will allow us to better measure the performance of our 
120-plus existing programs and utilize data to make better and 
more informed resource decisions. Having decision-supported 
data available will enable DS to determine how well current 
programs and resources align with the Bureau's and the 
Department's strategic goals.
    DS is actively participating in the State Department's 
Quadrennial Diplomacy and Development Review, (QDDR), that 
Secretary Clinton has focused on improving the Department's 
resources and training to ensure the right people for the right 
job at the right time are in place to conduct diplomacy around 
the world. We are also participating in the QDDR working group 
responsible for the foreign affairs community's activities and 
contingency response environments.
    The Department of State operates increasingly in dangerous 
locations, and this requires extensive resources to mitigate 
the risk. Although DS's workforce has grown substantially over 
the past decade, the fluid nature of the security environments 
in Afghanistan, Iraq, and Pakistan presents an ongoing 
challenge to our program and staffing structures in those and 
other posts.
    To meet the challenge of securing U.S. diplomatic 
operations under wartime conditions in Iraq, Afghanistan, and 
other high-threat zones, DS relies on Worldwide Personal 
Protective Services contract (WPPS), to provide protective 
security, aviation support, and fixed guard services. These 
contracts allow the scalability required for increased threats 
or new operational requirements and provide specialized 
services in extraordinary circumstances.
    In recognition of the early challenges DS experienced in 
contract oversight, specifically in Iraq, we have improved 
contract officers representative training for all security 
officer personnel and increased agent staffing in Iraq and 
Afghanistan to directly supervise the personal security 
contractors.
    In addition, DS has established a new Security Protective 
Specialist skill code, a limited non-career Federal employment 
category designed to augment DS special agents by providing 
direct oversight of WPPS protected motorcades in critical 
threat locations where such resources are needed most. We are 
similarly evaluating other staffing options to adequately cover 
this important oversight function.
    Although the Bureau is experiencing a surge in new 
positions, uneven staff intake in the 1990s has resulted in 
significant experience gaps in our agent and security 
engineering corps. To limit the effects of this experience gap, 
we have increased training and mentoring programs and carefully 
identified personnel capable of serving in what we call stretch 
assignments.
    Over the past 10 years, the Bureau has embarked on an 
ambitious recruitment and hiring program. We have increased our 
outreach to colleges and universities with an eye toward 
building a professional service that reflects America's 
diversity. In order to quickly deploy highly-qualified 
personnel into the field, we have revamped some of our training 
programs and are carefully evaluating our entire agent training 
program to ensure that the instruction provided to new and 
existing DS special agents is relevant to the new realities of 
our Bureau's mission.
    DS continues to strive to meet the security needs of the 
Department in increasingly dangerous locations by anticipating 
needs and dedicating appropriate resources to accomplish our 
mission. Through these changes, DS remains one of the most 
dynamic agencies in the U.S. Federal law enforcement and 
security community.
    Thank you, Mr. Chairman, for the opportunity to brief you 
on the global mission of the Bureau of Diplomatic Security and 
on our unique ability to safeguard Americans working in some of 
the most dangerous locations abroad and the taxing requirements 
that we face. With your continued support, we will ensure 
Diplomatic Security remains a valuable and effective resource 
for protecting our people, our programs, facilities, and 
interests around the world.
    Senator Akaka. Thank you very much, Ambassador Boswell, for 
your statement.
    Mr. Ford, will you please proceed with your statement.

 TESTIMONY OF JESS T. FORD,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Thank you, Mr. Chairman and Senator Voinovich. I 
am pleased to be here today to discuss the Department of 
State's Bureau of Diplomatic Security, which is responsible for 
protection of people, information, and property at over 400 
embassies, consulates, and domestic locations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Since 1998, and the bombings of the U.S. embassies in East 
Africa, the scope and complexity of threats facing Americans 
abroad and at home has increased significantly. Diplomatic 
security must be prepared to counter such threats, such as 
crime, espionage, visa, passport fraud, technological 
intrusions, political violence, and terrorism.
    My statement today is based on our report, which we 
released 2 days ago, and was requested by this Subcommittee. I 
am going to briefly summarize our findings.
    We found that since 1998, DS's mission and activities, and 
subsequently its resources, have grown considerably in reaction 
to the security threats and incidents that I just outlined. The 
wars in Afghanistan and Iraq, the need to enhance the physical 
security of our embassies and our facilities domestically, the 
increased protection missions that DS has to undertake, 
investigations of passport fraud and visa fraud, have all led 
to significant budgetary and personnel growth.
    Diplomatic Security's budget has increased 10-fold since 
1998, from approximately $200 million to about $2 billion 
today.
    In addition, the size of DS's direct-hire workforce has 
doubled since 1998. The number of direct-hire security 
specialists, special agents, engineers, technicians, and 
couriers has increased from approximately 1,000 in 1998 to over 
2,000 today.
    At the same time, the Diplomatic Security Bureau has 
increased its use of contractors to support its security 
operations worldwide, specifically through increases in their 
guard force and the use of contractors to provide protective 
details for American diplomats in high-threat environments.
    As a consequence of this growth, Diplomatic Security faces 
policy and operational challenges. First, DS is maintaining 
missions in increasingly dangerous locations, necessitating the 
use of more resources and making it more difficult to provide 
security in these locations.
    Second, although DS has grown considerably in staff over 
the past 10 years, it still faces significant staffing 
shortages in domestic offices. It still has a number of 
language deficiencies of its staff. And it still has experience 
gaps, as well as other operational challenges which need to be 
addressed.
    Finally, State has not benefited from good strategic 
planning for the Bureau, which is an area that we made 
recommendations for in our report.
    We identified several operational challenges that impede DS 
from effectively carrying out its missions. Just to cite some 
examples, staffing shortages in its domestic offices. In 2008, 
about one-third of DS's domestic offices operated with a 25 
percent vacancy rate or higher. Several offices reported that 
this shortage of staff affected their ability to conduct their 
work, resulting in case backlogs and inadequate training 
opportunities.
    Foreign language deficiencies. As you cited in your opening 
statement, Mr. Chairman, we found that about 53 percent of the 
Regional Security Officers overseas do not speak or read at the 
level required of their positions, and we concluded that these 
foreign language shortfalls could negatively affect several 
aspects of U.S. diplomacy, including security operations. To 
cite an example, an officer at one post told us that because 
she could not speak the language, she had to transfer a 
sensitive phone call from an informant on a potential criminal 
activity to one of her locally-engaged staff.
    Experience gaps. Our analysis showed that about 34 percent 
of DS's positions, not including Baghdad, are filled with 
officers below the position grade. For example, several 
Assistant Regional Security Officers with whom we met in the 
course of our work indicated that they did not feel adequately 
prepared for their jobs, particularly with the responsibility 
to manage large security contracts. We previously reported that 
experience gaps can compromise diplomatic readiness.
    Balancing security and diplomatic missions. DS's desire to 
provide the best security possible to its staff overseas has at 
times resulted in tension within the Department over its 
diplomatic mission versus its security needs. For example, 
Diplomatic Security has established strict policies concerning 
access to facilities that usually include both personal and 
vehicle screening. Some public affairs officers that we met 
with indicated that they were frustrated that they could not 
operate as freely as they would like, and this continues to be 
a challenge within the Department in terms of balancing 
appropriate security versus enhancing our diplomatic posture 
outside the embassy walls.
    In our view, the increasing growth and expanded missions 
and operational challenges facing the Bureau require a 
strategic review of the Department. While DS has undertaken 
some planning efforts, we found that they had not adequately 
addressed the resource needs or management challenges that we 
outlined in our report. Several senior Diplomatic Security 
officers indicated that DS remains largely reactive in nature, 
stating that several reasons for the lack of long-term planning 
was that they had to react to policy decisions made elsewhere 
in the Department or in the White House or in the Congress.
    Finally, past efforts to strategically plan at DS have not 
resulted in good, solid strategic planning. We cited an example 
in our report. In fiscal year 2006, DS indicated that it needed 
to develop a workforce planning strategy to recruit, sustain 
efforts, and find highly-skilled personnel and that they needed 
to establish a training flow, which I can discuss later, to 
help deal with staff shortages. We found, as of 2009, that 
these issues had not yet been resolved.
    In our report, we recommend that the Secretary of State, as 
part of the Quadrennial Diplomatic Review, conduct a strategic 
review of the Bureau of Diplomatic Security to ensure that its 
missions and activities address the Department's priority needs 
and address the challenges that we outline in our report.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any of your questions.
    Senator Akaka. Thank you very much, Mr. Ford.
    Ambassador Boswell, last week, Secretary of State Hillary 
Clinton testified that the United States is on track to triple 
the number of civilian positions in Afghanistan to 974 by early 
next year. How will this large increase impact DS operations in 
Afghanistan, and how much additional DS staffing will be 
required?
    Ambassador Boswell. Mr. Chairman, that will be a great 
challenge to DS, as the surge in Iraq was some years ago. But 
we have the advantage this time of having a little more advance 
notice. We are going to be doubling the staff of our security 
office in Kabul and we have, shall we say, a large resource 
package included in the discussions that will go forward 
regarding the budget for 2011. But it is a very significant 
change.
    At the moment, the DS agents in Afghanistan largely protect 
the U.S. mission in Kabul. They do not have responsibilities 
outside of Kabul. We, the U.S. Government, are going to be 
opening up two new consulates in Afghanistan this year--next 
year, I should say, in 2010, one in Mazari Sharif and another 
one in Herat in the West. Those consulates will be protected by 
DS agents. The civilian personnel that are further in the 
field, mostly in the south and the east, are under the 
protection of the military.
    Senator Akaka. Ambassador Boswell, the State Department 
just announced its intention to find a new contractor to 
provide security at the U.S. Embassy in Kabul after reviewing 
allegations of misconduct and security lapses by the current 
contractor. A prominent government watchdog group questions 
whether embassy security in a combat zone should be handled by 
the private sector instead of by government employees. Has the 
State Department considered whether these positions in combat 
zones should be performed in-house?
    Ambassador Boswell. Yes, sir, we have. That contract, which 
as you mentioned the Department has decided not to exercise a 
renewal, an option year in that contract, is going to be 
recompeted. It is going to be recompeted among guard companies. 
I have to clarify that what we are talking about here are the 
guards that provide the static security around the embassy in 
Kabul. They man the guard posts around the embassy in Kabul. 
They check the vehicles. They man the checkpoints. They screen 
the people that are admitted to the compound. These are not the 
people that provide bodyguard services that protect our people 
when we move. These are the fixed-post guards.
    Around the world, that function has been provided by 
contractors for many years. I don't see any real chance that 
they could be provided by direct-hire U.S. Government employees 
or military simply because there are so many. You mentioned the 
number of people we have in DS, and the proportion of which are 
contractors. Out of the 34,000 people that you mentioned, 
something like, I think, 32,000 are these fixed-post guards 
that guard embassies around the world, just like the fixed-post 
people that stand outside the Capitol or around the State 
Department, and that has been a successful program for many 
years.
    Senator Akaka. Ambassador Boswell, according to the GAO 
report, DS is planning to replace some contractors with Federal 
employees. Please tell us more about DS's plans for reducing 
the number of contractors.
    Ambassador Boswell. Yes, sir. I think it is fair to say 
that the civilian surges in Afghanistan and Iraq, and also in 
Pakistan, which we haven't mentioned quite yet, severely 
challenge DS from the point of view of stretching us and making 
very great demands on our resources. And I think DS did 
extremely well in stepping up to the plate and meeting those 
challenges. But I think one of the places where we could have 
done better and we didn't was in the administrative--in 
providing the administrative tail that supports the teeth, the 
agents in the field.
    And this was pointed out in a recent State Department 
inspection, also, of DS, that we had under-resourced the 
administrative management end, mostly in the States, in both 
headquarters and our field offices. So we are significantly 
increasing the number of direct-hire people for positions that 
have in the past been filled by contractors.
    By contractors, I don't mean guards. I don't mean 
bodyguards. I mean, these are administrative and technical kind 
of positions--secretaries, analysts, this sort of stuff.
    Senator Akaka. Mr. Ford, your report states that when the 
United States removes its remaining forces from Iraq by the end 
of 2011, it will impact Diplomatic Security's operations. What 
specific challenges do you foresee?
    Mr. Ford. Well, we haven't seen the plan yet for exactly 
how that withdrawal is going to be--how it is going to be 
impacted in terms of the civilian side. As the military 
withdraws, DS already has a very large presence in Iraq. We 
believe that it will affect DS because some of the protective 
services that the military may be providing currently could be 
transferred over to DS, but we don't have any specific 
information with regard to what the staffing implications of 
that might be.
    In our report, we had indicated that DS had 81 special 
agents in Iraq, which is by far the largest number of any 
overseas post. So the point we were making in our report is 
there is likely to be some implications for DS as we withdraw 
our forces from Iraq, just like there will be as we surge into 
Afghanistan. But we have not yet been briefed on what the 
actual numbers will be and what the resource implications might 
be for providing protective services in Iraq once our military 
starts to withdraw.
    Senator Akaka. Ambassador Boswell, would you have anything 
to add to that question?
    Ambassador Boswell. Only to say that it is certainly a 
major challenge facing us. As the military withdraws, we, the 
Department, will take over certain functions that are now 
performed by the military, and I can give you an example. The 
police training function, which is currently done by the 
military, will be handled by the Department. That will mean a 
significant increase in the number of direct-hire U.S. 
Government employees and contractors that will be assigned to 
the embassy in Baghdad and also around the country, and that 
will be a big challenge for us because they will have to be 
protected. This is a significant staff increase and these 
folks' business is not in Baghdad. It is out in the 
countryside, and we will have to protect them. We are seeking 
the resources necessary to do that.
    There is a very active planning operation regarding Iraq in 
2010. It is department-wide. We are very much a part of it and 
this aspect is one of the things that we are considering very 
closely.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. One of the things that always bothered 
me about Iraq was the lack of planning documented in several 
books, Assassins Gate, The Fiasco, and a few others. We were 
lucky that toward the end, we got our act together, and it 
seems to me that we are doing a much better job of preparing 
for the mission in Afghanistan.
    Do you have a critical plan put in place? You mentioned 
that you know in terms of Iraq who is going to leave; so you 
are in a green zone and you know how much security is being 
provided by the military, but when they are gone, how are those 
people going to be taken care of. I don't think very much was 
said about the number of people that we are going to leave in 
Iraq that may continue with provincial reconstruction teams 
(PRTs). But has somebody really sat down on a piece of paper 
and scoped it out so that you have confidence that once troops 
are received in 2011, that you are going to be able to take 
care of your folks?
    Ambassador Boswell. Yes, we are, Senator. As I mentioned, 
there is a very active planning program that is going on, not 
only in the Department, but involves Ambassador Chris Hill's 
staff in Baghdad, as well. I think it is reasonable to say here 
that the Department will have a significant presence in the 
countryside. It is likely that we will open up new consulates 
which do not exist now. And it is also likely that there will 
be some, what we are going to call Enduring Presence posts, 
which is where State Department employees will be out in the 
countryside, and we are very actively planning, one, for that, 
and two, how we are going to protect them.
    Senator Voinovich. Is there any paper anywhere that we 
could look at that would kind of give us the long-range plan 
and the commitment in Iraq so that we have some idea of where 
folks are going and how long we anticipate their being there?
    Ambassador Boswell. I am not aware of any paper that 
exists. This is a planning process that is going on. I don't 
think I could tell you that there is a formal roadmap out there 
yet, but I do know that the planning is going on and is being 
factored into the President's 2011 budget request.
    Senator Voinovich. Mr. Chairman, I think it would be a good 
idea for us to talk maybe with Foreign Relations or to really 
get an idea of just what the commitment is going to be made in 
Iraq once the troops leave there.
    The other thing that I think that hasn't been underscored 
in the President's presentation, or quite frankly, I don't 
think it has been brought up. I have seen some of the other 
hearings. What are the plans that we have to move folks out to 
do the PRTs and the government infrastructure building and so 
forth that we have in Afghanistan? How long do we think that we 
are going to need to do that in order to stabilize those 
communities? It is a big part of it, I think. We talk about the 
military side of this, but I think that we may not be as candid 
as what we should be.
    In other words, the information that I got was that we are 
probably going to have to have folks there for a longer period 
than what the President presented, though I wholeheartedly 
support the idea of putting the pressure on them to get them to 
do the things that they are supposed to be doing. But this 
recent comment by Karzai about the fact that we are going to 
have to be there for a long time, and one of the things that we 
are not talking about is if we have an Afghanistan army, we are 
going to have to pay for it. They haven't got the money to pay 
for it. It is a little bit different than Iraq.
    But beyond that--you are going to have a lot of people over 
there, and I would be very interested in knowing, because of 
this very good plan that was shared with me, what are you going 
to do to make sure that when they get out in the boonies, that 
they are being taken care of?
    I did hear that you are going to initially rely on the 
military, is that right?
    Ambassador Boswell. Yes, sir. The arrangement that has been 
made is that the Diplomatic Security are responsible for the 
staff that are at the embassy in Kabul and associated missions 
in Kabul and also our two consulates, the two future 
consulates. And as you said, sir, I think we are going to be 
there quite a long time.
    But the protection for the civilians that are embedded with 
the military in the field is provided by the military. I think 
the rule of thumb is something like about 10 civilians per 
battalion out there, 8 to 10, something like that. I am sure it 
is not cookie-cutter, but that is roughly the number, and those 
people will be protected by the military.
    Senator Voinovich. You indicated that you have done an 
analysis of the people that should be governmental and 
replacing contractors. Do you have that anywhere written down, 
about what somebody did? Have you made some decisions to say, 
we are going to have people that are going to be on the Federal 
payroll rather than have contractors, is that correct?
    Ambassador Boswell. Yes, sir. I want to clarify that is not 
wholesale replacement of a lot of contractors. What has been 
the subject of controversy is the degree to which the U.S. 
Government relies on contractors, largely in the field, and 
that, I am afraid, is not going to change from a security point 
of view. We really have no alternative to using contractors 
both as our fixed-post guards, and I don't think really any 
substantive reason not to use contractors for that purpose, but 
also as a sort of force multiplier for us so that we can deal 
with protecting our people when we get surges like this.
    For example, there are something like 1,000 bodyguards, 
including the ones who protected you when you were there, in 
Iraq right now. That number can go up and down and change. I 
don't see any way that those contractors will be replaced by 
direct-hire people. The Commission on Wartime Contracting is 
looking at that, among other things, and I don't imagine that 
they are going to come up with an alternative to that.
    Senator Voinovich. May I ask you something?
    Ambassador Boswell. Sure.
    Senator Voinovich. You say it has been happening for a long 
time, and you might comment on it, but has somebody really sat 
down and looked at a piece of paper and said, these folks are 
costing us X number of dollars, they have certain competencies 
that we need, compared if they were direct hires, and how does 
that work out from a dollars and cents point of view? In other 
words, you are saying, basically, we are going to stay with 
those people. We have been with those people. Has anybody ever 
thought of developing a cadre of individuals within the 
Department that could do the same thing, and is there a reason 
that you don't want to do that in terms of recruitment or cost? 
Is it really cheaper to hire these people?
    Ambassador Boswell. Yes, sir. I want to--that is a long and 
complex subject, but I will do my best to answer it. And right 
off the top, I need to make very clear the differentiation 
between fixed-post guards, to man a perimeter, and the 
bodyguards, who are much more controversial, the Blackwaters of 
this world.
    There is no question--I don't think I need a study to tell 
you that hiring Ghanaians to stand fixed-post around our 
embassy in Accra--which is what happens in every single country 
in the world except the combat zones, that is, except for 
Afghanistan and Iraq--that hiring local nationals is far 
cheaper than trying to hire some American contractor who will 
put Americans in there. Not only that, it is not necessary.
    These are contractors who--and some of them are under 
personal services agreements, they don't work for a guard 
company.
    Senator Voinovich. And, by the way, that has reminded me. 
Senator Akaka, when you have traveled, you are right. They have 
a lot of folks, professionals that have been attached to the 
embassies for years that are nationals that are providing 
security. Thanks for reminding me of that.
    Ambassador Boswell. Yes, indeed, and that is the great bulk 
of the contractors. They go home at night. They don't go into 
some guard camp somewhere.
    Senator Voinovich. So the fact is, it is cheaper.
    Ambassador Boswell. It is much cheaper, infinitely cheaper. 
Now, the second category is the security guards, the 
bodyguards--Blackwater, DynCorp, and Triple Canopy. There has 
been a question of whether it is cheaper to do it with 
Americans on contract, or perhaps U.S. military--and I believe 
the Congressional Budget Office (CBO) came out with a study 
last year in which they put up the true cost, or as best they 
could get to it of the true cost of a civilian contractor, 
bodyguard, and a military person, and when it came out, it was 
very close to the same.
    Obviously, if we substituted military, that is 1,000 new 
military in Iraq at a time when we are drawing down the 
military, it is really not very practical.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Mr. Ford, you testified that GAO identified both domestic 
and overseas DS offices with significant staffing gaps. I want 
to set the stage for why this issue is so important. Would you 
please describe how these staffing shortfalls could affect our 
diplomatic missions and the security of State Department 
personnel? And I would like to ask for any additional remarks 
from Ambassador Boswell, as well, on this.
    Mr. Ford. Most of the staffing gaps that we identified in 
our work tended to be in the domestic offices here in the 
United States. I think, typically, what was happening was that 
DS would receive protective missions for things like the 
Olympics, or they needed to staff positions in Iraq and 
Afghanistan, which was their highest priority, and they tended 
to use agents that were here on domestic assignments. And so 
the domestic offices here that are responsible for things like 
passport fraud, visa fraud, other investigatory-type missions 
that DS has, those were where the shortfalls tended to be in 
terms of the mission.
    So we had some examples we cited in our report. I think one 
of the examples, as I recall, was in the Houston field office, 
which we indicated they had about a 50 percent staff vacancy 
last year. When we consulted with them about what the 
implications of that, they told us that it resulted in case 
backlogs on such things as the Western Hemisphere Travel 
Initiative.
    So some of the implications of the DS having to shift 
resources to conduct, say, work in Afghanistan and Iraq by 
taking people from the domestic offices, resulted in mission 
shortfalls here domestically, and that is probably where most 
of the impact occurred, based on our analysis.
    Now, we also visited a number of overseas locations in 
which we talked to a number of DS folks and other embassy 
employees at various overseas missions that were not 
necessarily the highest priority, compared to Pakistan, Iraq, 
and places like that. DS officials told us a lot of their folks 
were shifted over to work in those locations which had some 
negative implications in terms of what Regional Security 
Officers (RSOs) wanted to do with their individual locations.
    We also found that it impacted DS's ability to provide 
sufficient training for all of its staff because there isn't a 
sufficient training float within DS--and, by the way, this is a 
State Department-wide problem, it is not unique to DS--where 
staff are not able to get the training they need because they 
need to go overseas and immediately fill a position, which in 
some cases resulted in people that may not be as experienced as 
they should be to fulfill that mission, and we cited some 
examples in our report of people telling us, I am not sure I am 
fully trained to do my job. I am going to have to learn from 
the job training what I need to do here.
    So those are some of the, I guess you could say, negative 
implications of staffing shortages that DS is faced with 
because of these other higher priorities.
    Senator Akaka. Ambassador Boswell, do you have anything to 
add to that?
    Ambassador Boswell. Yes, sir. I think it is true, as I 
mentioned earlier, that the challenge, the stress of trying to 
staff up major initiatives in Iraq and Afghanistan had a 
downstream effect, or backstream effect. We were dealing with 
our highest challenge. We were dealing with our highest 
priority.
    It is true that it caused some vacancies in domestic field 
offices. I think we have gone a long way toward addressing 
that. Our vacancy rate in the field offices is much lower now 
than the figures used in the GAO report, which were, I think, 
for 2008. We have a vacancy rate in the domestic field offices 
now of 16 percent Foreign Service and Civil Service and we are 
working to close that last remaining gap.
    I would like to take a little issue with what Mr. Ford said 
in terms of training. I don't think any DS agent had their 
training cut short, that is, their agent training cut short to 
go to any assignment overseas. We just wouldn't do that. But I 
think where we did fall short is on the issue of language. And 
I know, Senator Voinovich, this is something that you are very 
interested in and that the Director General testified about 
before this Committee several weeks ago.
    The GAO report accurately points out that we have about 50 
percent of the DS jobs overseas that are language designated 
that do not have people that have tested at that level. And I 
think there was some curtailment of language training or 
waivers put into place to get people out.
    Having said that, as I mentioned at the top, I was in this 
job 10 years ago at a time when there were very few Diplomatic 
Security positions overseas that were ever language-designated. 
It was just not part of the deal. And I am very pleased now to 
see that the Bureau and the corps of agents has evolved in a 
good direction in the sense that many more agents are getting 
language training, including hard language training--Chinese--
over a long period of time. That had not been done in the past.
    Now we are still catching up. There are a lot of positions 
that were language-designated that we haven't had the chance or 
the time--they haven't been designated long enough for us to be 
able to put people with that kind of training in. But I can 
assure you that it is a very high priority of mine of making 
sure that agents get the right kind of language training to go 
to their posts. The human resources people at the State 
Department are very much adhering to this, as well. There are 
much fewer language waivers that are being approved. But we 
have a certain amount of catching up to do in that regard.
    Senator Akaka. Ambassador, senior diplomats worldwide have 
been provided fully-armored cars to protect them from terrorist 
attacks. Both Ambassador Neumann and Ms. Johnson state that in 
some situations, the use of high-profile armored vehicles may 
put our diplomats at greater risk. Also, in some cases, these 
vehicles may not be the correct ones for the local terrain.
    Is Diplomatic Security also hearing these concerns, and are 
there steps DS can take to provide more flexible, lower-profile 
security wherever it is appropriate?
    Ambassador Boswell. Yes, sir. One of the other bits of 
culture shock I had coming back to this job after 10 years' 
absence was to find, as is mentioned in the report, that 
whereas 10 years ago, there were a very relatively small number 
of armored vehicles out in the field--there are a relatively 
small number of embassies where the ambassador rode in an 
armored vehicle--now it is thousands of armored vehicles, and 
certainly every ambassador is required to have an armored 
vehicle, and in many places it is more than one. I think we 
have 3,000 armored vehicles, maybe more than that, in the 
field, mostly in the combat zones, as is appropriate.
    In terms of what kind of vehicles, I think it is a fair 
criticism. We are to some degree limited, I have to remind the 
panel, we are limited by America. The kind of American vehicle 
that you can put heavy armoring on is a Chevy Suburban, and 
that is a lot of what is out there.
    I think we have made a good deal of progress. We do have 
some other kinds of vehicles, particularly in places where we 
are exempt from Buy America because of right-hand drive, for 
example--Pakistan is a place like that--but also we are, I 
think, making a lot of progress in mixing up the kind of 
vehicles that we are using, a combination of high-profile, low-
profile vehicles, and vehicles much better adapted to the 
terrain, as you mentioned. I think that is a fair criticism, 
but I think we are moving in the right direction on that.
    Senator Akaka. Thank you. Thank you, Ambassador Boswell. 
Senator Voinovich.
    Senator Voinovich. Yes. I would just like to get back to 
the issue of the training float. How is the Department coming 
on that? I mean, that impacts you, but it impacts everybody 
else, too.
    Ambassador Boswell. The training float has been a dream of 
department managers for many years. I think the Department got 
some training positions on a one-time basis in 2009 and DS got 
its share of those positions, but that is a one-time shot. We 
have never been able to maintain, you could call it a training 
float--it has had many other names over the years--Man in 
Motion. It is not just training. There are always gaps between 
assignments in the Foreign Service. It is just the nature of 
the game. There are leaves. There is training. There is home 
leave. And there are the complications that result from trying 
to match up a departure date with an arrival date. And so those 
gaps exist and it would be nice to have that kind of float, but 
I don't think--we have never seen it.
    Senator Voinovich. In terms of the language gap, either you 
hire new people that have the languages or you take the people 
that are there and you upgrade their language skills. In order 
to do that, you have to give them time off for that to occur, 
which means that if they are not doing their job, then somebody 
else has to do it. You are saying that, still, you are not to 
the point where you are robbing Peter to pay Paul.
    Ambassador Boswell. No, sir. I didn't mean to imply that at 
all. The Department has always had it as a matter of principle 
that we will train our people. If people come on board with 
languages, that is fine. That is great. But we will train our 
people, including the DS agents, and we intend to train our 
people to the language required by the position.
    We have taken steps such as, for example, advertising world 
language--advertising means putting out a list that DS agents 
can compete for, can express their preferences for jobs, in 
which we have world language lists advertised well ahead of 
time so that we can properly put people into training to 
fulfill a language requirement.
    Senator Voinovich. Just one other thing, just for 
information purposes. You have an embassy and they have people 
with various jobs. You have people from the CIA, and you have 
people from the military. Then is there somebody that has a 
special slot for your operation in each of the embassies, that 
is kind of the security coordinator?
    Ambassador Boswell. Almost every embassy in the world has 
what is called a Regional Security Officer. That is the chief 
security officer for the embassy. It is always a DS agent. Some 
of them are very senior and manage enormous operations. Some of 
them are very small. But there is a RSO at virtually every 
post.
    My dad was the head of Security years ago for the State 
Department when there were, in the 1960s, probably 20 security 
officers in the field in the Department, in the Foreign 
Service, and they were truly regional because there were only 
about 20 of them. But there is nothing regional about the jobs 
now. There are very few security officers that are responsible 
for more than one country. Regional Security Officers are the 
chief security official and the chief----
    Senator Voinovich. And they are State Department employees 
that are----
    Ambassador Boswell. Always.
    Senator Voinovich. Yes. So really, in effect, if that is 
the case, that is the group of people that you are trying to 
bring on board and train up to take on these positions, would 
that be----
    Ambassador Boswell. That is right. We have about 700 agents 
in the field, security officers in the field. About a little 
under half of our entire agent population is in the field, and 
the ones that are stateside spend a lot of time doing temporary 
duty (TDY) in the field.
    Senator Voinovich. I don't have any other questions.
    Senator Akaka. Ambassador Boswell, in August my staff 
traveled to U.S. embassies and consulates in the Near East and 
Central Asia and saw firsthand posts that looked like 
fortresses. Of course, strong security measures are necessary 
to protect embassy personnel. Nonetheless, our diplomats 
informed my staff that these posts make it more difficult to 
build relationships with the local population, either due to 
stringent security standards or the relative inaccessibility of 
these posts.
    How do we build better relationships and increase our 
public diplomacy while ensuring that posts are well protected?
    Ambassador Boswell. Mr. Chairman, my responsibility is the 
security part of the balance, but it is a balance that we are 
trying to reach and we in security try to play our part in 
helping the Foreign Service, the rest of the Foreign Service, 
achieve that balance.
    Having said that, I think if somebody was here from the 
Bureau of Overseas Buildings Operation that is responsible for 
building embassies, they would tell you that they work very 
closely with Diplomatic Security to try to produce designs and 
buildings and standards that are more, what shall I say, 
approachable, humane, a little less of the fortress.
    But you have got to understand, also, that in the wake of 
the terrorist attacks on our embassies in Nairobi and Tanzania 
in 1998, the Congress mandated new standards for buildings and 
the Department went through an incredibly intense building 
program. I think we built 50 new embassies, or maybe it is 60--
65 new embassies, thank you, in the last several years. And to 
do that in an economical way, much use was made of something 
called a standard embassy design. A standard embassy design is 
not very pretty, I will tell you that right now. It is very 
functional. And many of the embassies that your staff saw in 
Central Asia were certainly of that kind of design.
    I do think that we have made a lot of effort in the 
Department, have made a lot of effort to make these buildings a 
little less fortress-like, but, Senator, I am a big fan of very 
secure buildings. When I get a threat, when I sit in my morning 
meeting and look at threats in new places, one of the first 
questions I ask is, what kind of building do we have there to 
protect our people? And I am very reassured when it is one of 
these new buildings.
    Senator Akaka. Thank you. Ambassador Boswell, Ambassador 
Neumann stated in his written testimony that the State 
Department needs to give its deploying officers secure 
communication devices to be used in the field, because officers 
currently rely on the military for these capabilities. Is the 
Department considering doing this, and are there any obstacles 
to moving forward on this?
    Ambassador Boswell. We have a capability, fly-away packages 
that we use for secure communications in certain instances, for 
example, when the Secretary travels. But they are not in 
general use, as Ambassador Neumann pointed out in his 
statement.
    The State Department personnel in the field in Afghanistan, 
for example, as I mentioned, are closely linked to the military 
and do use the military communications. We need to do some more 
on our side, though. I think some things are being done. We 
have just, for example, in Afghanistan, made available our open 
net, which is not classified--it is sensitive, but 
unclassified, but nevertheless, it is a step in the right 
direction--to all the people that we have in Afghanistan.
    Senator Akaka. Mr. Ford, the GAO report identified the 
challenges DS faces of balancing security with State's 
diplomatic mission. Do you have any recommendations on how DS 
and State's diplomatic corps can best achieve this balance?
    Mr. Ford. Well, we haven't got a report that has a 
recommendation in it on this issue. I think, based on working 
in this area for many years, I think the key thing here is 
communication. There is sometimes miscommunication that occurs 
between security folks that work for DS and the diplomatic side 
of the house, which is trying to accomplish an outreach mission 
or reach a broader audience in an individual country, and in 
many cases, there is just a lack of communication about what 
types of security is necessary for them to conduct their work 
and how to get outside the building.
    So, I mean, I would say, at a minimum--and this may be a 
training issue--we need to make sure that our security folks 
are sensitive to what the diplomatic mission is and we need to 
make sure our diplomatic folks are sensitive to security, the 
security mission that DS has.
    When you talk to both DS officials in the field and State 
Department employees in the field, I often hear perceptions 
that indicate that one doesn't really understand what the 
other's job is, and as a consequence, there are sometimes some 
negative viewpoints on both parts with regard to what the 
mission is overseas. So I think the main thing is to make sure, 
through training and through other communication mechanisms, 
that the Department makes it clear there are certain reasons 
why we have security standards in our embassies and in our 
packages for people that want to go outside the embassy. And I 
think on the DS side, there needs to be an understanding that 
we want to outreach to the local population there because we 
have other diplomatic objectives. So in my mind, communication 
is the key.
    Senator Akaka. Well, thank you very much. That was my final 
question.
    Senator Voinovich. Do you have a criterion that you use in 
terms of where you are going to build the new embassies? By 
that, I mean I was in China in 2005 and they were building a 
new embassy 45 minutes outside of Beijing and it is just a long 
distance away. Currently--or maybe they have already moved--it 
was downtown, very close to other embassies. So it is now way 
out somewhere else. Is there something that you could go to to 
say that we made the decision to move it there for 10 different 
reasons, or is there a standard? In Macedonia, they got one of 
the prize pieces of property in the area way out, I think in a 
residential area, to build their new--it is probably built, 
too, but what is the criteria that you use about where you put 
these places?
    It gets back to something I am going to ask the next panel 
about, is that you get them way out someplace where you are not 
close to the business area or maybe other embassies. Does 
anybody weigh that in terms of its location and the image that 
it is going to create?
    For example, the biggest one was the one we built in Iraq. 
I mean, who in the devil ever figured to build that thing? What 
was the basis for their building it?
    Ambassador Boswell. The short answer to your question, 
Senator, is that there is a standard and it does govern, to a 
large degree, where we put our embassies, and that is the 
requirement, the classic requirement, well known, for a 100-
foot setback between our buildings, buildings occupied by 
Americans, and the edge of the property where the wall is. That 
is an essential, in fact, probably the most important security 
measure that I can put into place is that 100-foot setback.
    And, of course, that means if you are going to have a 
significant embassy, that means you need a significant piece of 
land, and a significant piece of land of that size is often 
very difficult to find. So it is true that new embassies, and 
as I mentioned before in my testimony, there have been an awful 
lot of new embassies built, that many of them are not right in 
the downtown core. I would put in parenthetically that the one 
in Beijing is in the downtown--Beijing is a pretty big city, 
but it is not in some field. It is in town and is, in fact, in 
an area where a lot of other embassies are being developed.
    Senator Voinovich. You are talking about the new one?
    Ambassador Boswell. The new one. I am very intimately 
familiar with it.
    Senator Voinovich. OK. Well, that is good news to me, 
because I was told that they were building it way out and it 
would take the ambassador 35 or 40 minutes to come down to 
meetings and----
    Ambassador Boswell. I think, it was not being built way 
out. It is just that Beijing is a very big city and it has been 
built in a different part of town. And it is true that it is 
farther away from the ambassador's residence. But in terms of 
where it is in Beijing, it is in a very active area--the 
Intercontinental Hotel is right across the street from it, and 
several other embassies.
    It is also true, I think, that while we do have embassies 
that are distant--that has been one of the byproducts of 
building these new embassies--towns and cities grow up around 
embassies. I was part, years ago, of putting together the real 
estate package for our embassy in Oman, a critical high-threat 
post at the time, brand new embassy. We got a lot of criticism 
for having to put together a site that was half-an-hour away 
from the downtown location where the old, very difficult to 
defend embassy was. And the site was in a bunch of tomato 
fields owned by local farmers, and it was a 13-acre site. And I 
went back to that site last year where the new embassy has been 
in place for 15 years and the town has grown up around it. It 
is a highly prestigious area of Oman with an enormous number of 
other buildings around it, including prestigious buildings.
    So I am not saying that happens in every case, but that 
certainly happened there.
    Senator Voinovich. And some, like in the U.K., in London, 
that prized piece of property, the State Department folks said, 
we are going to get so much money for this that it will help 
pay for the new embassy.
    Ambassador Boswell. That is right, sir. But the reason for 
the new embassy was simply that the existing embassy is 
extremely----
    Senator Voinovich. Too close to the street.
    Ambassador Boswell [continuing]. Difficult to protect, 
almost impossible to protect well. About as much unattractive 
barbed wire and barriers and things have been put around that 
rather classic, famous embassy, and there is a real threat in 
London, as we have witnessed in the last few years. So that 
embassy is being sold--I think it has been sold, though we are 
still in it. A rather remarkable new site has been found.
    Senator Voinovich. I have seen it.
    Ambassador Boswell. Centrally located and expensive.
    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much.
    I want to thank our first panel for being here today. Your 
responses will be helpful as we continue to review DS. And 
again, I thank you and wish you well in your positions. Thank 
you.
    Now, I would like to call up panel two. Our second panel of 
witnesses are Ambassador Ronald E. Neumann, the President of 
the American Academy of Diplomacy, and Susan R. Johnson, the 
President of the American Foreign Service Association.
    As you know, it is the custom of the Subcommittee to swear 
in witnesses and I will ask you to stand and raise your right 
hand.
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Johnson. I do.
    Ambassador Neumann. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statement will be part of the record. I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Ambassador Neumann, will you please proceed with your 
statement.

TESTIMONY OF AMBASSADOR RONALD E. NEUMANN (RET.),\1\ PRESIDENT, 
                 AMERICAN ACADEMY OF DIPLOMACY

    Ambassador Neumann. Chairman Akaka and Senator Voinovich, 
thank you for inviting me to appear again before you. As you 
know, I am not a security specialist. Rather, I speak to you as 
one who has lived with security issues, been under fire, and 
served in three critical threat posts, two as Ambassador.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Neumann appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    First, however, I would like to pay special tribute to the 
brave and hard-working RSOs and ARSOs, security officers, who 
have protected me and my mission in dangerous times. I also 
would like to acknowledge my respect for the people of DynCorp 
and Blackwater, who protected me in Iraq and Afghanistan. They 
performed with courage, judgment, and restraint, and one lost 
his leg in the process. Whatever fault now attaches to others, 
I owe all those gallant men, State Department and contractor 
employees, my gratitude, and I wanted to have this moment to 
express it.
    To sum up, the problems that I wanted to talk about are the 
inadequate security communications that you referred to in the 
previous panel; security mobility issues, especially the need 
for expanded air assets that may be required; utilizing local 
security forces for PRTs and branch posts; and accepting some 
greater degree of risk when the gains warrant; and finally, the 
consideration of funds for security emergencies.
    The GAO report observed the changing security conditions 
that govern our life, and that has produced a vast expansion of 
security facilities and resources. But there are still gaps 
between some of our standards and practices and the needs that 
we have to serve. We lack the standards, not the equipment, to 
provide secure, deployable, computer-based communications. We 
have had this problem for years and we have never solved it. We 
have delegated it to the military, but that is going to be a 
problem as they go away. And, frankly, we have people serving 
with allied militaries that don't have compatible, secure 
communications.
    This is a bureaucratic issue. This is an issue of 
willpower. The military protects the exact same secrets in 
deployable circumstances. It is time for State to summon the 
willpower to resolve the bureaucratic problems involved and 
find a way to send deployable secure computers to the field 
with our officers. I would add, this is not exclusively a DS 
problem. This is a problem between bureaus and standards.
    You raised the comment in the previous panel from my 
testimony about our vehicles. I think we have made progress in 
Afghanistan and Iraq on the mix of vehicles. I think we still 
have a problem in some areas. I am probably a little out of 
date. I know DS has made a good deal of progress on that and I 
think it is something that needs close attention and further 
follow-up work.
    I would note that part of the problem is also a 
congressionally-mandated problem. That is the Buy America 
standards. But Congress has supported waivers and changes and I 
hope you will continue to do that.
    As the military redeploys from Iraq, we are going to face 
complex issues of how to handle protection for our movements. 
State may need much more robust vehicle maintenance 
capabilities than it now has, and I think State should consider 
having greater air assets of its own, both fixed and rotary 
wing, in these critical threat areas.
    I understand there is some planning going on for this, but 
many issues remain to be settled and future funding is a 
significant issue. These resources and the authorities to use 
them wisely need to be thought about now and budgeted for. 
Supplemental budgets are not the answer. They are neither 
sustainable nor dependable for year-to-year operating costs. 
This problem, as you well know, goes to everybody, 
Administration and Congress alike, but really, it is time to 
stop flinching from the requirement to pay for the mitigation 
of the dangers we ask our personnel to accept.
    Operating in areas like Afghanistan and Iraq requires we 
adopt new ways of thinking about risk. Our Foreign Service 
officers are not soldiers, but our Nation's need for informed 
judgments on complicated economic and political subjects does 
not end when risk arises. And you cannot coordinate effectively 
over the telephone with foreigners that work on face-to-face 
and personal relationships.
    We are hampered not only by issues of numbers of vehicles 
and shortages of RSOs, but by our self-imposed standards, often 
described informally as zero tolerance. We have avoided the 
problem in the field by turning over the security to the 
military so that our people are moving on different standards 
than those which we would use if they were secured by RSOs. But 
as the military withdraws from Iraq and we are on our own, or 
as we establish branch posts in Afghanistan, we are going to 
face increased problems.
    I want to be clear. I do not advocate that we easily assume 
high levels of risk for civilians, and I absolutely would be 
opposed to ordering officers to take risks they consider 
unreasonable. But we must find better answers than we have to 
date. We have made progress in Iraq. We have too many places 
where we have 48-hour requirements still for movements in 
cultures that don't make appointments 48 hours in advance for 
necessary work.
    We have to have standards that allow for the use of 
judgment in weighing the risk of doing something against the 
grain to be derived from the action. I want to be clear. I am 
not criticizing the excellent RSOs who worked for me. They did 
a fine job. I hope we are beyond the issues of the past in 
which dedicated officers frequently pushed the bureaucratic 
boundaries to accomplish what they often correctly believed to 
be essential tasks. These were not matters of officers 
necessarily taking foolish risks or using bad judgment--
although I have known that to happen. Rather, the point is to 
note the tension between security standards and what we need to 
know and do.
    I believe we have made progress, but I believe we are going 
to find this problem coming back in spades. And so we do need 
to focus on it.
    Some speak of risk management. It is an antiseptic and 
bureaucratic term to avoid saying that someone may get killed 
or hurt taking a risk that seemed sensible at the time. But it 
is the flexibility to make such difficult decisions that we 
need to strengthen on two different levels.
    One is in the field. You talked in the last panel about 
security officers and regular officers not understanding each 
other. I think that is true. I think we need to move to having 
this kind of training be a part of regular training for all 
State Department officers, not just senior officers and 
security officers. There is no telling when you go to a quiet, 
sleepy post whether you are going to have the next coup in the 
world. So this needs to be part of the training that we don't 
do anyway.
    The second issue concerns Washington. We need a more 
systematic policy on where the balance should lie between local 
responsibility and Washington responsibility. I believe we have 
made some progress. I think it is probably too dependent on 
individual officers. And I think that if we are going to ask 
people to take risks, they need to know that they are going to 
have some bureaucratic back-up if they get unlucky.
    As we go to the PRTs, branch posts, we have repeatedly had 
problems for the last 8 years on how we secure these people and 
we have not done well with our answers historically. Delegating 
the protection of civilians to the military has been only 
partially successful, in my judgment. I, frankly, do not 
believe that our military will be able--that is not willing, I 
don't question their willingness--but I do question that they 
will have the resources to secure all our people and allow them 
to move with the frequency required of their mission.
    Senator Akaka. Ambassador Neumann, will you please 
summarize your statement?
    Ambassador Neumann. Yes, that is about it. I think we can 
use local security. I think we know how to do it, but we have 
to make decisions. We have to fund it.
    And finally, I would just make two last points, Mr. 
Chairman. One is we need some kind of financial reserve, 
because the State Department does not have the resources--the 
Defense Department does--to swing money in a crisis. That would 
take a lot of work with Congress to design in a way that 
wouldn't be a slush fund.
    The last thing is strategic planning. We haven't done 
nearly enough. We need to do a lot more. It is hard. We don't 
have enough people. But I think we are still playing catch-up 
in the strategic planning. Thank you, sir.
    Senator Akaka. Thank you, Ambassador Neumann. Ms. Johnson, 
please proceed with your statement.

 TESTIMONY OF SUSAN R. JOHNSON,\1\ PRESIDENT, AMERICAN FOREIGN 
                      SERVICE ASSOCIATION

    Ms. Johnson. Thank you, Chairman Akaka and Senator 
Voinovich. Thank you again for inviting the American Foreign 
Service Association (AFSA) to testify on this important and 
complex issue. I welcome the opportunity to share some of our 
perspectives and to be testifying again along with Ambassador 
Neumann, with whom we almost always agree.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Johnson appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    AFSA is proud to represent Diplomatic Security Specialists 
at the State Department. They make up about 10 percent of our 
total membership, and we are proud to salute their dedication, 
courage, and hard work to protect both our overall mission and 
our personnel.
    The challenges and demands facing the Foreign Service 
abroad, as well as concern for security and safety of our 
diplomatic personnel, have grown exponentially over the last 
two decades. For reasons of security, centrally located and 
accessible embassies and missions seem to be largely a thing of 
the past. Our ability to travel throughout many of the 
countries we are assigned to is far from what it used to be.
    As the young daughter of a career Foreign Service Officer, 
I recall traveling into remote areas of the Sahara, and later 
in what was then Ethiopia, going horseback riding after school 
with friends from the U.S. base at Kagnew Station, many miles 
into the country outside of our consulate general in Asmara. 
These now seem like distant memories.
    The need for increased vigilance and better security 
measures has led to new and tougher security standards, 
constricting access to and travel outside of our embassies and 
missions. We can no longer rely primarily on the ability of 
host countries to provide adequate security. Finding the right 
balance between prudent and effective security measures and 
policies, and the ability to do our jobs as diplomats 
effectively is more challenging than ever.
    AFSA welcomes the GAO report calling for strategic review 
of the recent growth in the mission and the resources required 
by the Bureau of Diplomatic Security. We support the GAO 
recommendations. We also concur with Ambassador Neumann's 
points and recommendations.
    Within the last 6 years, I served in Iraq as a senior 
advisor to the Iraqi Foreign Ministry from July through 
December of 2003, and then for the next 3 years in Bosnia as a 
Deputy High Representative and supervisor of Brcko District, a 
high-profile position that came with a full security detail--
armored vehicle, lead and follow cars, a U.S.-led team of local 
security personnel provided for under a DynCorp contract. This 
Close Protection Unit, as it was called, was dedicated, highly 
professional, and if I had to have security 24/7, I couldn't 
have had better people. But along with many others I questioned 
then, and I still do today, whether that particular security 
package was needed in Bosnia 10 years and more after the Dayton 
Peace Accords. It seemed that it was either an all or nothing 
proposition. Either you have the whole package or you have 
nothing, and nothing was not the right answer, either.
    In Iraq in 2003, as I have described in my written 
testimony, the stated policy was all travel outside the Green 
Zone required full military escort. I arrived with the first 
induction or surge of civilian advisors and it was quickly 
apparent that such escort was not available to the majority of 
the civilian advisors, although we needed to travel to our 
respective ministries, especially in this early and chaotic 
period. Many of us considered a several-vehicle military 
convoy, with civilians wearing armored vests and helmets, 
projected a high-profile potential target and that it was safer 
and more effective for us to travel quietly under the radar, 
avoiding regular time tables and taking other prudent security 
measures. So we did that in order to do our jobs, and 
fortunately, no disaster occurred.
    My personal experiences there and in other posts lead me to 
suggest, first, the need for more and better internal dialogue 
or communication between the policy and security sides of the 
State Department on what is the best security posture.
    Second, that the one-size-fits-all approach is not the best 
one for us today.
    And third, that senior officials on the ground in country 
should have more flexibility and take more responsibility to 
determine which mix of security measures is most appropriate in 
a given situation at a given point in time. I second the 
remarks that Ambassador Neumann made that this can't be left to 
personal decisions of individuals ambassadors of deputy chiefs 
of mission (DCMs). There has to be some bureaucratic support. 
There has to be some consensus that lays out guidelines for 
this, because you can't expect someone to take a position that 
I am going to authorize or have somebody take on a risk when 
the other side of it is, you take all responsibility if 
anything goes wrong. There has to be a better way.
    Finally, the increased prominence of security issues today 
underscores the need to do more to avoid the experience gaps 
highlighted in this and other GAO reports prepared for this 
Subcommittee. Lack of experiences, from my perspective, 
increases security risk at both the personal and the mission 
level, and having season, experienced veterans in the right 
positions decreases those risks. The training now offered at 
Foreign Service Institutes (FSI) certainly heightens security 
awareness, but it cannot be expected to substitute for years of 
accumulated experience.
    Thank you, Mr. Chairman, and I am happy to respond to any 
questions that you may have.
    Senator Akaka. Thank you very much.
    As you know, GAO found that over half of the Regional 
Security Officers do not have the language competency that they 
require. What impact could this have on overseas security for 
our diplomats, and what recommendations do you have to improve 
their language competency?
    Ambassador Neumann. I will go first.
    Senator Akaka. Ambassador Neumann.
    Ambassador Neumann. It is a help when they have language. 
Regional Services Offices are not only responsible for 
protection, they are also responsible for negotiating and 
working out a lot of security arrangements with the host 
government. Being able to do that directly rather than depend 
on translators that may be inadequate is a big advantage. I 
don't think we are hurting in a fatal way, but we need to do 
it.
    It goes back, however, to this issue of training float 
questions, Senator Akaka and Senator Voinovich, you were 
raising earlier. First, State has to have enough people to be 
able to take them off the line and train them. Otherwise, we 
are just flapping our gums.
    Second, they have to have a strategic plan for how they are 
going to use the training. I don't yet see that emerging, and 
it is something that is of quite a bit of concern to me. State 
management is drinking out of a fire hose, trying to assign the 
people they are getting. It is a good problem to have, but I am 
concerned that if we don't have the plan and the budget--as you 
and I have talked about, it gets more difficult next year--you 
are not going to have a template to fill in against for the 
long term. So I see that need to lay out the strategic plan as 
the next critical piece beyond getting the bodies.
    Senator Akaka. Thank you. Ms. Johnson.
    Ms. Johnson. I would agree that there is an impact, but it 
is felt most greatly in the most difficult or dangerous 
countries. The lack of language skills really depends on which 
country. In some places, it is important. In others, less so.
    I think that as part of this planning effort that 
Ambassador Neumann has mentioned and others have mentioned, 
there needs to be a review of the criteria for designating 
language-designated positions in general, and certainly for DS 
officers, and the levels at which those languages should be, 
taking into consideration that we need higher levels of 
proficiency in sensitive, difficult, dangerous countries and 
maybe lower levels in countries where that is not the case and 
where use and knowledge, good command of the English language 
is much greater.
    I think to do that--DS is now recruiting many people who 
don't have any experience with learning languages and don't 
necessarily have any aptitude for learning languages, and I 
think we need to recognize that it may take longer and we may 
need to review the approach we have to the language training 
and then reinforcing it once we have given it. So I think that 
whole approach of the Department to language training needs to 
be more carefully targeted and a little more creative in the 
way we give the training, particularly to differentiate more 
between those people who have strong language aptitude and 
experience with learning languages and those who don't. And 
right now, we don't. We mix everybody together to the advantage 
of both groups.
    Ambassador Neumann. But don't look at me when you talk 
about strong language aptitude. [Laughter.]
    Senator Akaka. To both of you, GAO testified that 
Diplomatic Security's workload likely will increase as the 
military transitions out of Iraq. Ambassador Neumann, you 
mentioned that, also. What should the State Department be doing 
to ensure that the transition is a smooth one?
    Ambassador Neumann. There are several things. Some of them, 
they may be doing. Remember, I am now out of the Department for 
a couple of years, so I may be behind.
    The first thing is they need to plan for what the post is 
supposed to do. What are the missions you are going to have to 
accomplish, in broad terms, how much you are going to have to 
move as well as to protect the base. Then you backplan from 
that and say, OK, what does that mean that I need in terms of 
people for security details, facilities, and vehicles. And then 
from there, you go to looking at your choices for how you are 
going to fill those needs.
    I doubt that the process is yet well advanced. They should 
be doing it right now because they have to give you the budget 
because those things are not going to be there, I am reasonably 
sure, in the current budgets because we didn't have to pay for 
them, the military paid for them. So that whole planning 
process needs to take place at a pretty high level of detail in 
order to come to the Congress with a request for the requisite 
assets that is really solidly documented, and I think there is 
work on that now. I don't mean that they are asleep at the 
switch, but I think that they are probably not up to the speed 
they themselves would like to be.
    Senator Akaka. Ms. Johnson.
    Ms. Johnson. Well, I would agree with the points that 
Ambassador Neumann just made. I guess one consideration for me, 
representing rank-and-file or the people, is that whatever 
planning is going forth or might go forth in the future, that 
perhaps AFSA have a role or a seat at the table in some of this 
so that we can provide a constructive value-added to this 
process factoring in the unfiltered views of people who have 
served in Iraq, Afghanistan, and who have practical, first-hand 
experience and views on what are likely to be the problems, the 
conditions. It is a little hard to look ahead and see what 
analysis we are going to make as to what are going to be the 
conditions on the ground after our military withdraws and, 
therefore, what can we take on as civilians.
    But this is another area where I am not sure what the 
Department is doing. I would agree that if the planning is not 
very far along, and I would like to work with management to see 
that AFSA is somehow involved in an ongoing basis in this and 
that we can figure out a role together as to how we can add to 
the process so that the end product is, in fact, better, and 
better understood by the people who are going to have to 
implement it.
    Senator Akaka. Senator Voinovich.
    Senator Voinovich. Yes. I sit at these hearings, and it is 
my 11th year--Senator Akaka, you have been around longer than I 
have and you will be around longer than I have, because I am 
leaving the end of the next year--and I always wonder about 
these hearings and what comes out of it. I have asked my staff, 
Senator Akaka, to go back over some of the hearings that we 
have had and the questions that we have had and these folks 
that are here to testify today.
    In terms of the practical things that the two of us can do 
and the Subcommittee can do, when I think about Iraq--and I was 
on Foreign Affairs and I look back on that--we assumed, based 
on what was told to us, that they had figured this out, and the 
fact is, they didn't and we thought they did. Now, I met with 
Richard Holbrooke and his team. I was very impressed with what 
it was, and he was saying that people are complaining because 
we are not bringing people on fast enough, but I am trying to 
do this thing in a way that we can get the best people and so 
forth. I was impressed with that.
    But if you were in our shoes, how would you go about making 
sure that the plan in terms of Iraq has been well thought out 
in terms of human capital and security and the other things, 
kind of a critical path about the things that we need to do, 
and to get an idea of just how long we are going to be in Iraq, 
because we are not talking about that. It is the same thing 
that I mentioned earlier, Mr. Chairman, in terms of 
Afghanistan. I mean, to my knowledge, nobody has talked about 
the commitment that we are going to make towards nation 
building, and anybody that knows what is going on has got to 
understand that is as much important or more important than the 
military side. But very little attention has been paid to that.
    How do we get a guarantee that, in fact, Holbrooke has got 
it figured out, the State Department has got it figured out, 
about how many people and how long and where they are going to 
be and all the other details to make sure that 2 years from 
now, when I am no longer in the U.S. Senate, I don't read about 
some fiasco over there where somebody didn't do their homework 
and we are in real trouble because the planning wasn't done? 
How do we get that information?
    Ambassador Neumann. The best realism I can give you--and I 
certainly agree with your going in proposition. I came to Iraq 
just after Ms. Johnson did and I drove the same unarmored 
vehicles in the same fashion with the same dubious adherence to 
regulation because they had not thought out these issues.
    I would segregate my answer into two pieces. They are not 
going to think of everything. Afghanistan is too much in flux 
and too changing. You will read of something that is not 
thought of. So part of what we have to do is to look at our 
capacity to react when we become aware of the thing, whatever 
it is, that we didn't think of.
    Senator Voinovich. But you ought to have a plan, at least--
--
    Ambassador Neumann. You ought to have a plan. You ought not 
to be guilty of not having thought of the things that were 
squarely in front of your nose and which we have seen ourselves 
mess up before.
    Senator Voinovich. Now, is that ordinarily somebody, if I 
got a hold of Richard Holbrooke and said, do you have something 
written down that shows that you have thought, and here is the 
plan, how many people, human capital, etc., do you think that 
is in place?
    Ambassador Neumann. I think it is in place in theory. I 
think that some of that theory will be very thin, I mean, 
especially when you talk about--and I want to be realistic 
here. When you talk about putting new people on the job to do 
jobs that have never been done, there is going to be a limit to 
how much you can think that through in a vacuum. So when those 
people arrive, there is always going to be a certain amount of 
muddle, quite frankly, while real humans work out what they can 
really do in a complex place.
    I, frankly, have every expectation that there is going to 
be a huge amount of muddle, particularly on the civilian surge, 
when we actually get people. And we don't own enough people who 
have the requisite qualifications. I mean, not just we don't 
own them in the State Department, they don't exist in America.
    So part of the planning is going to be, how are you going 
to learn from your mistakes? How is the plan going to be 
flexible enough that you can adapt instead of having to just 
come up here on the Hill and defend what may have been an 
inadequate plan because you didn't see something and say it was 
right when, in fact, what you really want to say is, I learned 
something and am fixing it.
    The other piece is the detail of planning, which I think 
your staff is going to have to work on. What are the 
questions--I think, sir, you have got to go beyond does the 
plan exist to say, what are the questions you are trying to 
answer in your plan, and it needs to get down to a level of 
detail on numbers of--not just numbers of people, but how many 
people are going to secure them.
    Right now, the answer that is being given, as I understand 
it, to how you are going to handle security and movement of 
your civilian surge is the ``military is going to do it.'' I am 
very skeptical that the answer is going to be adequate to the 
job. But I think that goes beyond people just arguing about 
views and saying, OK, what is it you are going to have to do 
and how are you going to do it, and why do you think the 
military can do this? And I think it is just going to be a lot 
of grilling from you all, frankly.
    Senator Voinovich. Ms. Johnson.
    Ms. Johnson. I hope I am not going out on a limb here, but 
as I reflect on this question, I know that you have been asking 
and urging the Department to produce various plans on various 
things, and those plans may or may not be in the works and may 
or may not be forthcoming. So it is possible you will have to--
and the only thing I know of that sort of ensures that you will 
get a product is to tie it to money.
    The other question is the quality of the plan. I think the 
thinking and planning up front is critical, and one of the 
weaknesses in State Department planning from my perspective is 
that it is insufficiently inclusive, if it is done at all. Not 
enough people get to have input. Not enough people get to see 
it and critique it or ``Red Game'' it.
    Second, once you have your plan, and as Ambassador Neumann 
says, it is not going to be perfect and it is not going to 
foresee everything and there will be some unexpected things 
that happen, so make sure that you have two critical factors 
addressed, and that is good communication and good mobility.
    And then, third, try to get the best people you can into 
those dangerous places. And if you have those mix of things 
there, I think our chances of avoiding any sort of catastrophe 
and dealing with the unexpected emergencies are rather good. 
But we often don't have--in fact, right now, we are missing 
most of those ingredients.
    Senator Voinovich. I have some more questions, Senator 
Akaka, but it is your turn.
    Senator Akaka. Fine. Ambassador Neumann, in your testimony, 
you mention that the State Department needs more people to do 
strategic planning, and that is one of your priorities. This 
may impact the Quadrennial Diplomacy and Development Review and 
perhaps later efforts. Along with adding more personnel, how 
will the State Department's culture need to change to support 
ongoing strategic planning?
    Ambassador Neumann. Clearly, there are cultural changes. 
Some of that, I think, is that we have to get a plan right for 
professional growth in the Service as a whole. We have not had 
that in the past, or we haven't had the choice, frankly, 
because we didn't have the people. Now, we are getting with 
thanks for what the Congress has done, what this Committee has 
supported, they are getting large numbers of people. The 
numbers are going to change the complexion of the Department. 
We have worked on the basis of the old training the young, but 
the old are retiring and the young are multiplying, and so the 
result is that more and more people are going to be trained 
more often by people that don't have nearly as much experience 
and seniority as they used to have.
    So I think we have got to grow--we have got to create a new 
paradigm, a new plan that looks at professional development--
not just formal training at FSI, not just language training, 
but professional development writ large, as our military 
colleagues have managed to think about it for some time. I 
think if we get that plan in place, although it will change and 
shift over the years, that we will then begin to grow people 
with somewhat different attitudes toward a number of the things 
you are concerned about.
    If we don't have a strategic plan for professional 
development, then I think it will all be ad hoc. I think you 
will get pieces of what you want, but you will always be kind 
of cramming it down against the grain.
    Senator Akaka. Ms. Johnson, you testified that some U.S. 
embassies have become less accessible, and Senator Voinovich 
was speaking about this, moved to the outskirts of capital 
cities and have a fortress profile that may send the signal of 
a militarized America. What needs to happen to make our 
embassies more accessible while continuing to meet security 
requirements?
    Ms. Johnson. Well, that is a tough question because we have 
embarked over the last decade in this direction that we are 
currently on of building already 65 or more of these kind of 
fortress-like embassies outside the center, and we often see 
that the properties that we sell are taken over by other 
European powers and they use it for an embassy. I am thinking 
of Zagreb right now.
    One concern is that in trying to defend ourselves from 
attack and trying to address the security of our diplomats and 
our people overseas, we are always going to be fighting the 
last technology. We are now working with this 100-foot setback 
and it is my understanding that this might have been either 
imposed by Congress or perhaps was in the Inman report, but it 
was something that now appears to be cast into law or cast in 
stone.
    But I think we are reading now about suicide bombers and 
attacks that are taking place at 500 feet detonated and are 
still blowing up entire buildings, and so it is very possible 
that the technology in the hands of the people who are setting 
off explosions is going to make the 100-foot setback obsolete. 
So I am not sure that particular defensive tactic is going to 
serve us well over the long term and we may find that we have 
spent a great deal of money to fight the last war and we will 
just be confronted with a new set.
    So I am not sure that I have the answer to that, but I know 
that it is a problem for conducting diplomacy, and from where I 
sit, in many of the posts I have been in in the last decade, I 
am finding that the business world and the non-governmental 
organization (NGO) world is becoming better informed and more 
knowledgeable about what is going on in the country where they 
are living and working than many of the people in our 
fortresses, who are handicapped by many constraints that make 
it impossible for them to get out, form the relationships, and 
get their finger really on the pulse of the country that they 
are in.
    And I think we need to think about this as we develop a 
vision for what is going to be the mission of the Diplomatic 
Security of the United States in the coming years. What is the 
vision? Is the vision that we are going to be increasingly 
involved in nation building, in post-conflict or even 
continuing conflict, fragile or failed states, and that we are 
going to build up for that, or is there some other notion?
    And how does the role of the U.S. Government fit with what 
the private sector is now doing? And how do we, in looking at 
public-private partnership models, how do we get a better grip 
on what is the appropriate and optimal role for the public part 
of that, let us say the embassy, and what is the appropriate 
role for the private part, the private sector? And who should 
be coordinating? Should the embassy play some sort of 
clearinghouse role, or what should be the role of the embassy 
in all of this?
    I think many of these questions are not really being 
addressed in the ``public square,'' are not being addressed 
with sufficient thought. We may end up spending a lot of money 
and training even for the wrong things if we don't figure this 
out.
    Senator Akaka. Thank you. Ambassador Neumann, you recommend 
that Foreign Service Officers at the State Department and 
United States Agency for International Development (USAID) 
should be given risk management training. How do you suggest 
the Department implement this training, and who should be in 
charge of providing it?
    Ambassador Neumann. New curriculum will have to be 
developed. Right now, this is, I think, primarily a mid-level 
and senior-level training issue. It is not a junior level one. 
But it does go to this question of people not understanding 
each other. That came up with GAO and what you talked about in 
the first panel, Senator Akaka.
    So I think it is not that hard to have professionals invent 
role-playing scenarios, curriculum, training, but right now, we 
are not even doing much--we are doing mid-level training in a 
series of postage stamp modules that we try to cram into 
people's transfer summer. I think this is the kind of thing 
that you need in-service training to expose officers to very 
broadly across the Foreign Service.
    For instance, the State Department has done team exercises, 
crisis exercises, for years, where they have teams that travel 
out to embassies and they do simulations and go through a 
crisis. So you could build some of this kind of training into 
that. You could build it into training here. But right now, we 
are not doing it, so we are getting past the question of 
misunderstanding that you raised only by accident, or by 
officers who live both of the different worlds, but not 
everybody needs to do four wars the way I did.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. I really didn't understand, Ambassador 
Neumann. You are talking about communications and computers 
that are secure, and tell me about that. I am not clear.
    Ambassador Neumann. I am trying to be a little careful, 
because there are some issues that are still forward projection 
and have security implications.
    Senator Voinovich. OK.
    Ambassador Neumann. But basically, when we first sent 
officers to Iraq, we gave them no deployable secure computers. 
Until they got on the military net, they had only unsecure 
methods of receiving information, which means they were blind 
to a lot of threat information and they could not report 
appropriately--with appropriate classification, in all cases, 
developments in their own areas.
    That problem has not really been fixed. Right now, what we 
have done is we have done a workaround. We send them out with 
the U.S. military. They are using the military computers. I 
know it is the same government, but they have completely 
different standards from the State Department on what they can 
take to the field and how they can use it.
    As long as we are with them, our officers can use their 
computers or similar computers. They can talk to our computers. 
As soon as they go off on their own, its different. If you have 
big groups like the team you send out if an embassy is bombed, 
they do have a communications package. But when you are talking 
about a few officers going someplace, the State Department does 
not own any releasable, usable technology they can give an 
officer to put him in secure contact with his embassy. He can 
use his private account. He can use his Yahoo!. I don't think 
that is a very good way to handle what we need to control, and 
so either we don't control or we don't have enough protection 
on what we control, and we haven't figured this out.
    So right now, take North Atlantic Treaty Organization 
(NATO), for instance or another problem. In Afghanistan about 
half of the PRTs, as you know, are NATO PRTs. We have State and 
USAID people in a lot of those PRTs. They work on a 
functionally different computer system that does not talk--I 
mean, you cannot cross-communicate secure communications 
between NATO communications and either the American military or 
our computers.
    So I can get a State officer out in a PRT with a NATO force 
and they can be friendly and give him their computer, but he 
can't send to my account in the embassy. We were physically 
dealing with this in Kabul. We actually were running fiber 
optic cable off the telephone poles, down the street, to 
connect my office with General McNeil's so that we had a NATO 
communication. He had the Secret Internet Protocol Router 
Network (SIPRNET) so he and I could talk to each other. But the 
headquarters didn't. So we had to go out and buy computers that 
aren't in the State Department's system, run fiber optic cable 
off of telephone poles, and connect--and then we had to 
physically handle data because you can't electronically move it 
from one system to the other. I think this is ridiculous.
    Senator Voinovich. So the point is that there needs to be a 
lot more coordination, to start off with, that you would have 
these secure computers, and they probably are going to have to 
talk with the military part of this----
    Ambassador Neumann. Exactly. But it is a bureaucratic issue 
of what standards are acceptable.
    Senator Voinovich. All right. So what you try to do is have 
uniform standards. You have got consistency there and you can 
talk. It really gets back to the other thing about--I will 
never forget, when I was in Iraq, we went out to one of the 
camps, and I don't even know if there are any State Department 
people that were there. There will always be military people. 
But the fact of the matter is that they had developed a very 
good relationship with these sheiks. You could just tell. They 
were talking. There was like kind of a little celebration and 
it was that kind of thing that makes a difference.
    It seems to me that if you are going to do the Afghanistan 
and you are going to have your military out there, that one of 
the things you are going to make sure is that they are trained 
in counterterrorism and they are trying to make friends. But 
then that kind of segues in with your State Department people, 
so there is a movement there from one to the other that 
probably is as effective as anything that we can do.
    Lots of challenges.
    Ambassador Neumann. Yes, sir.
    Senator Voinovich. You talk about the whole concept of 
having an overall plan for human capital and training and the 
rest of it. So often, what we do is we spend all our time 
putting out fires and never have time----
    Ambassador Neumann. That is, I think, part of what is 
happening right now in the State Department. I mean, in one 
way, it is a good problem. I would rather they have the problem 
of suddenly having a lot of people to deal with than not having 
that problem. But the fact is, or my impression--remember, I am 
on the outside, I don't speak for the Administration--but my 
impression is that they are now so beleaguered trying to get 
people assigned that they are having a lot of trouble dealing 
with the sort of out-year big strategic issues.
    How do you fill the knowledge gap between bringing people 
in at the bottom and the fact that a lot of what we need is not 
just bodies, but a certain level of experience, and what is 
your long-term training? Your staffs were both involved with us 
in preparing the report of the Academies on the budget. And we 
made a big deal in that of the need for a training and 
transition float. In my judgment, the State Department needs, 
though, to come up with a strategic plan for training.
    Senator Voinovich. Let me just ask you one other thing. The 
last time around, I was disappointed in Secretary Rice because 
she had Mr. Zoellick in there and then she had Mr. Negroponte 
in there, and then they finally got Mr. Kennedy, and then they 
had the lady that was there trying to focus on management, 
similar to Colin Powell and Mr. Armitage, who it seemed to me 
had a really good focus on human capital planning.
    Where do you think we are right now? Ms. Johnson, they have 
the new organization. Secretary Clinton has decided to have one 
person in charge of policy, and the other in terms of 
management. Is there anybody over there, from your 
observations, that is getting up early in the morning and 
staying up late at night working on management, working on 
developing the human capital, the training, and looking at the 
big issues that the Department has to undertake if you are 
really going to get the job done overall?
    Ambassador Neumann. I think they are all getting up early 
in the morning and staying late at night. Whether they are 
thinking about the correct issues--I think they are trying to. 
I don't think, actually, I can answer the question and I think 
we will have to see what comes out----
    Senator Voinovich. Who is in charge of that?
    Ambassador Neumann. QDDR? Well, it was under Mr. Lew, I 
believe----
    Ms. Johnson. Yes. I mean, we have two deputy secretaries, 
and Mr. Lew is doing that with Anne-Marie Slaughter of Policy 
Planning. The two of them are co-chairing the QDDR effort, and 
there are five or six working groups under it that are working 
on different things. And, in fact, we at AFSA are trying to see 
how we might relate to those different working groups. Some of 
them affect USAID in particular, and we are concerned with 
getting our USAID folks in touch with the people who are doing 
that kind of planning.
    Senator Voinovich. In terms of the plan, the 
recommendations that you made, do you know if anybody is 
spending any time looking at those recommendations from the 
Academy to see if they are implementing them or following 
through or responding?
    Ambassador Neumann. Not very much. They are certainly 
interested in the numbers. I don't think they are using the 
plan. We are talking to the Director General's Office about 
having the Academy take on another planning effort; that is try 
to help; don't feel proprietary about it. If they could do it 
without us, we don't need to be horning in, but we have got an 
awful lot of experience in the Academy, an awful lot of 
knowledge, and we would like to find a way to work with them to 
make some of that knowledge useful--Tom Pickering's favorite 
joke, we are 200 members with 7,000 years of experience and we 
would like to make some of that available to help with this 
effort.
    Senator Voinovich. Mr. Chairman, I want to thank you very 
much for having this hearing. I don't have any other questions. 
But this has been a great hearing and I am fired up, Mr. 
Chairman.
    Senator Akaka. Well, thank you very much, Senator 
Voinovich.
    What are your top three recommendations for improving our 
diplomatic security efforts within the State Department?
    Ambassador Neumann. Ms. Johnson, I will let you go first 
for a change.
    Ms. Johnson. I listened with great interest to Assistant 
Secretary Boswell give his testimony and talk about what they 
are planning and what they are trying to do. I would go back 
to, I think, the suggestions that I made in my oral testimony 
earlier, is consistent with what Mr. Ford from GAO was saying.
    The need for more, and I say better, communication between 
the policy side and the Diplomatic Security side, because all 
of these either misunderstandings or miscommunications. And I 
think that communication has to happen at multiple levels, and 
some of it could be by having more joint training, where DS 
people and other officers are taking or addressing the same 
issues together in the same room from their different 
perspectives. I think that always adds value to both sides.
    So first is just to find ways to pay more attention to that 
dialogue, because I don't think it really exists in any kind of 
consistent systematic or formal way. It is ad hoc and 
unrecorded and out of date and we need a new one.
    Second, I think, would be some discussion about whether 
this basically one-size-fits-all approach needs to be changed, 
and the fact that we have these unique situations in Iraq and 
Afghanistan, I think, give a good opportunity to reassess that 
and to say we need a more differentiated approach.
    And the last thing has to do with finding a way to take 
advantage of AFSA's connection and ability to get the 
unfiltered views of our members, because--and compare those 
unfiltered views with whatever else is coming up through the 
more hierarchial system. We often hear very different things 
from our members than what apparently management is hearing 
when they ask the question. So I think we need to confront that 
a little bit and see what is happening.
    Why is it that people feel that they can say--and do say--
one thing to us where it is not necessarily for attribution and 
another thing in their more official capacity? We need to 
narrow that gap. There will always be a little bit of a gap 
there, but I think we need to narrow it a bit. If it gets too 
far out of whack, it is a signal that we need to open the 
discussion and management needs to send a signal, as Secretary 
Clinton has said and said early on, that she encourages and 
wants to hear different points of view. But I don't think 
people have internalized that yet.
    I will turn it over to you.
    Ambassador Neumann. Well, you know the real estate joke 
about three things that are most important, location, location, 
and location. I think in this case, I would say plan, plan, 
plan. We have got a lot of big issues. It also picks up Ms. 
Johnson's issue of the need to talk across functional and 
substantive lines. But if one doesn't plan, then you are always 
reacting and our budget cycle is not conducive to acting in a 
reactive mode, because then you can't get the resources to, in 
fact, react. Then you have to pull from someplace else. You 
just cascade your problems. You shuffle them from one place to 
another. So of the things I laid out, I think planning is my 
overall priority.
    Senator Akaka. Thank you. Well, I want to thank you both 
very much and thank all of our witnesses today.
    Our diplomats repeatedly have been targets of attacks and 
DS is charged with keeping them safe so they can advance U.S. 
interests abroad. You have provided key insights in support of 
this effort.
    Additionally, I am hopeful that Diplomatic Security will 
begin taking a strategic approach to addressing its staffing 
and operational challenges. This is critically important, since 
the Department must be fully prepared for new challenges in 
Iraq and Afghanistan, as well as other crises that may emerge.
    The hearing record will be open for one week for additional 
statements or questions other Members may have.
    This hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Subcommittee was adjourned.]



















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
